                   Department of Justice
                      United States Attorney Stephen R. Wigginton
                               Southern District of Illinois

______________________________________________________________________________

FOR IMMEDIATE RELEASE                                             CONTACT: James L. Porter
MONDAY, MARCH 25, 2013                                            PHONE: (618) 628-3700
WWW.JUSTICE.GOV/USAO/ILS/


          FORMER SOUTHERN ILLINOIS HOSPITAL EMPLOYEES
  SENTENCED FOR STEALING IDENTITIES OF ELDERLY HOSPITAL PATIENTS


        Stephen R. Wigginton, United States Attorney for the Southern District of Illinois,
announced today that, Susan L. Harris, 28, of Marissa, Illinois, and Ashley C. Drummond, 25, of
East St. Louis, Illinois, were sentenced for aggravated identity theft and conspiracy to commit
mail fraud in the United States District Court for the Southern District of Illinois, East St. Louis
Division. Harris was convicted following a two-day jury trial in December 2012. Today, the
United States District Court sentenced Harris to 4 years in prison, to be followed by 3 years of
supervised release. Harris was ordered to pay $7,648.97 in restitution and a $200 special
assessment. Drummond, who pleaded guilty in November 2012, was previously sentenced to 2
years in prison, to be followed by a 3 year term of supervised release. Drummond also was
ordered to pay $8,675.27 in restitution to various victims and a $200 special assessment.

       “Preying upon the elderly, the sick, and the vulnerable when they are in the hospital, at
their most vulnerable, reflects a cold and callous person devoid of a conscience. I will continue
to aggressively prosecute these types of criminals so that they never profit from their greed.” said
U.S. Attorney Wigginton.

        Evidence presented at the trial of Susan Harris showed that Harris conspired with Ashley
Drummond to steal personal identifying information of patients of a Southern Illinois hospital.
The two women targeted elderly patients, particularly patients who came to the hospital from
nursing homes and assisted living facilities. Drummond and Harris used the stolen personal
information to apply for new credit card accounts in the victims’ names. Harris had worked at
the hospital before forming the scheme with Drummond, but she was no longer an employee of
the hospital during the period when patient identifying information was stolen. Instead, Harris
relied on Drummond to steal information from the elderly patients’ charts. Drummond was a
radiology technician, and it was her job to transport patients to and from the radiology
department as needed. While transporting the patients, Drummond would steal victims’ personal
information from their charts. Drummond, who pleaded guilty to her role in the offense, testified
against Harris and admitted that, after stealing the information, she would call Harris to discuss
which credit accounts to apply for with the newly acquired patient information, after which one
of the women would attempt to apply for a new credit account. Harris was later caught on
camera at a retail store using one of the credit cards obtained with the personal information of a
90-year-old woman who lived in an assisted living center and had been a patient at the hospital
where Drummond worked.

       This case was investigated by the Southern District of Illinois Identity Theft Task Force,
the United States Postal Inspection Service, the Internal Revenue Service Criminal Investigation
Division, the Social Security Administration Office of the Inspector General, the Maryville
Police Department, the Glen Carbon Police Department, and the Collinsville Police Department.
The case was prosecuted by Special Assistant United States Attorney Katherine L. Lewis and
Assistant United States Attorney Michael J. Quinley.

         If you think that you might be a victim of identity theft, contact the Southern District of
Illinois Identity Theft Task Force at 618-410-6918.


                                                ###
